WAIVER

Supreme Court of the United States

No. 19-3
Ryan Begay ve New Mexico
(Petitioner) (Respondent)

1DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court,

Please check the appropriate boxes:
rl Please enter my appearance as Counsel of Record for all respondents.

Q There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

ow Tama member of the Bar of the Supreme Court of the United States.

G Jam not presently a member of the Bar of this Court, Should a response be requested,
the response will be filed by a Bar member.

Signature Pavia. bone bcbnO
Date: Beg RO (fF

(Type or print) Name MARTHA ANWNE Wdéo
OmMr. is. O Mrs. O Miss

FirmATIoeWEY GENECAL OF NEW Mexico
Address 2© {_ as st. PID SAUTE BOO

City & State ALBUQUERQUE NIK Zip B7PIOD
Phone CS os) FF - 3505"

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM: NO‘ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED:

 

 

 

 

“ Scott H. DAviSoN

CeUNSEL FOR PETITIONER

Obtain status of ease on the docket. By phone at 202-479-3034 or vin the internet at
